JAMES E. JOHNSON
Corporation Counsel

THE CITY OF NEW YORK

LAW DEPARTMENT
100 CHURCH STREET
NEW YORK, NY 10007

December 30, 2019

Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, DC 20543-0001
Re:

MELANIE T. WEST
telephone: 212-356-0842
fax: 212-356-2509
email: mwest@law.nyc.gov

Natofsky v. City of New York, Docket No. 19-732

Dear Mr. Harris:
I am an attorney in the office of James E. Johnson, Corporation Counsel of the City of
New York and counsel of record for the defendants-respondents in the captioned case. On
December 6, 2019, petitioner filed a petition for a writ of certiorari. Petitioner requested a 60-day
extension to file his writ of certiorari, which respondents did not oppose. Respondents now
respectfully request a similar 60-day extension to file this office's response, up to and including
March 5, 2019.
We are requesting this extension of time due to the press of work and a long-scheduled
vacation.
Thank you very much for your consideration.
Sincerely,

Melanie West
Assistant Corporation Counsel
cc:

Michael Foreman, Esq.
Director, Civil Rights Appellate Clinic
The Pennsylvania State University
329 Innovation Boulevard, Suite 118
University Park, PA 16802
mlf25@psu.edu

RECEIVED
JAN - 2 2020
THE CLERK

SUPREMECOURT U.S.

